Page Not Found Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Page Not Found
404. Page Not Found
The page you are attempting to reach may have been moved or had its name changed.
Visit Encyclopedia Smithsonian to search
by topic areas, or visit the
Collections Search Center to search for objects.
For  more information about the Smithsonian, write or call:
Smithsonian Information
P.O. Box 23293
Washington, D.C. 20026-3293
202-633-1000 voice
E-mail:info@si.edu
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 1/15/2014